  q#$#..                                          NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
   4
     0                                        CLOSEOUT MEMORANDUM
       ordo

 Case Number: A06010001                                                                    Page 1 of 1



          We received information that confidentiality of peer review of an NSF proposal may have been
          compromised. The PI' of a funded NSF proposal2 received a letter from complainant's3counsel
          alleging copyright violation in the proposal, which supported acquisition of research
          instrumentation at a University. We contacted counsel for the copyright owners, who asserts that
          the cease-and-desist letter was based solely on the publicly available award information for the
          grant.4

          Accordingly, this case is closed.




          I
              Redacted.
              Redacted.
          3
              Redacted.
          4
              Redacted.



NSF OIG Form 2 (1 1/02)
